APPENDIX
United States v. McLaughlin
Appeal No. 20-10708
available at 847 F. App’x 573 (11th Cir. 2021)
(per curiam) (unpublished)

App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 20-10708
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket No. 6:19-cr-00135-PGB-LRH-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
DANNY JAMES MCLAUGHLIN,
Defendant-Appellant.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Middle District of Florida
-----------------------------------------------------------------------

(February 16, 2021)
Before JILL PRYOR, NEWSOM, and LUCK, Circuit
Judges.
PER CURIAM.
Danny McLaughlin pleaded
(1) attempted enticement of a
sexual activity in violation of 18
(2) using interstate commerce

guilty to two crimes:
minor to engage in
U.S.C. § 2422(b); and
facilities to commit

App. 2
murder for hire in violation of 18 U.S.C. § 1958. The
district court sentenced him to life imprisonment—an
upward variance from his recommended sentencing
guidelines range of 168 months to 210 months—along
with a fine for $300,000. McLaughlin now appeals that
sentence.
After careful review, we affirm McLaughlin’s sentence, but vacate and remand for the limited purpose
of allowing the district court to apportion the $300,000
fine between the two convictions.1
I
McLaughlin first challenges his life sentence as
substantively unreasonable. We review the substantive
reasonableness of a sentence for abuse of discretion.
Gall v. United States, 552 U.S. 38, 41 (2007). The party
who challenges the sentence bears the burden of showing that the sentence was unreasonable considering
the record and the 18 U.S.C. § 3553(a) factors. United
States v. Tome, 611 F.3d 1371, 1378 (11th Cir. 2010).
The district court must impose “a sentence sufficient, but not greater than necessary, to comply with
the purposes” of § 3553(a)(2), including the need to
reflect the seriousness of the crime, promote respect for
the law, provide just punishment, deter criminal conduct, and protect the public from the defendant’s future
criminal conduct. 18 U.S.C. § 3553(a), (a)(2)(A)-(C); see
1

The facts are familiar to the parties, and we do not repeat
them except as necessary to resolve the issue before us.

App. 3
also United States v. Irey, 612 F.3d 1160, 1196 (11th
Cir. 2010) (en banc). The court must also consider the
nature and circumstances of the offense and the
history and characteristics of the defendant. 18 U.S.C.
§ 3553(a)(1). In considering these factors, the district
court need not discuss each one individually but must
acknowledge that it considered both the defendant’s
arguments and the § 3553(a) factors. United States v.
Gonzalez, 550 F.3d 1319, 1324 (11th Cir. 2008).
For a sentence outside the guideline range, we
must consider the extent of any variance and “give due
deference to the district court’s decision that the § 3553
factors, on a whole, justify the extent of the variance.”
United States v. Turner, 626 F.3d 566, 573-74 (11th Cir.
2010) (quotation marks omitted). When the district
court decides after “serious consideration” that a variance is appropriate based on the § 3553(a) factors, it
should explain that variance “with sufficient justifications.” Gall, 552 U.S. at 46-47. The court’s justifications
must be compelling enough to support the degree of the
variance and complete enough to allow meaningful
appellate review, but an “extraordinary justification” is
not required. United States v. Shaw, 560 F.3d 1230,
1238 (11th Cir. 2009). “A sentence’s variance outside
the guidelines range, whether upward or downward,
represents a district court’s judgment that the combined force of the other § 3553(a) factors are entitled
to greater weight than the guidelines range.” United
States v. Rosales-Bruno, 789 F.3d 1249, 1259 (11th Cir.
2015). We remand for resentencing only when we are
“left with the definite and firm conviction that the

App. 4
district court committed a clear error of judgment in
weighing the § 3553(a) factors by arriving at a sentence that lies outside the range of reasonable sentences dictated by the facts of the case.” United States
v. Pugh, 515 F.3d 1179, 1191 (11th Cir. 2008) (quotation
marks omitted).
Here, McLaughlin has not shown that his life
imprisonment sentence was substantively unreasonable. At sentencing, the district court expressly stated
that it was considering the § 3553(a) factors, focusing
on the nature and circumstances of McLaughlin’s
offense, the need to deter him and protect the public
from him, and the need for the sentence to reflect the
seriousness of McLaughlin’s offenses and provide just
punishment. The court explained that McLaughlin’s
actions evinced concrete intentions to commit particularly heinous crimes. And it highlighted the detail in
which McLaughlin described his criminal objectives to
an undercover agent and his meeting with the agent to
make an initial payment.
McLaughlin argues that the district court placed
too much emphasis on the egregiousness of his conduct
and too little emphasis on other mitigating factors,
such as his age, employment history, and abusive childhood. But the choice of which factors to emphasize
rests squarely within the district court’s discretion.
See United States v. Kuhlman, 711 F.3d 1321, 1327
(11th Cir. 2013). The court acknowledged that it had
considered the parties’ arguments and the presentence
investigation report (“PSI”), which included McLaughlin’s arguments as to mitigating factors. And in

App. 5
considering the need to avoid sentencing disparities,
the court identified two comparator cases with similar offenses and facts, where both defendants were
sentenced to life imprisonment based on the heinous
nature of the child sex crimes committed. See United
States v. Sarras, 575 F.3d 1191, 1220 (11th Cir. 2009)
(“Child sex crimes are among the most egregious and
despicable of societal and criminal offenses, and courts
have upheld lengthy sentences in these cases as substantively reasonable.”); United States v. Brown, 772
F.3d 1262, 1267 (11th Cir. 2014) (upholding 143-month
upward variance from the defendant’s guideline range
where the district court gave great weight to the need
to protect the public from the defendant based on
online chats about killing and cannibalizing children).
In sum, the district court gave serious consideration to whether a variance was warranted. It did not
err in concluding that the egregiousness of McLaughlin’s offenses supplied the compelling justification
necessary to support an upward variance to life imprisonment.
II
A
Separately, McLaughlin challenges his fine of
$300,000. He contends that the district court erred
as a matter of law under Federal Rule of Criminal
Procedure 32(i)(3)(B) by failing to address his arguments that the fine was substantively unreasonable
and unconstitutionally excessive under the Eighth

App. 6
Amendment. Under Rule 32(i)(3)(B), “for any disputed
portion of the presentence report or other controverted
matter,” the district court must either “rule . . . on the
dispute” or “determine that a ruling is unnecessary
either because the matter will not affect sentencing, or
because the court will not consider the matter in
sentencing.” Here, McLaughlin says, the district court
did not perform that function after he objected to his
fine as “unduly punitive,” given that he lacked the
resources to pay it because of the “number of civil
judgments being sought against him.” We review
questions involving the legality of a sentence de novo.
United States v. Vincent, 121 F.3d 1451, 1453 (11th Cir.
1997) (quoting United States v. Taylor, 11 F.3d 149, 151
(11th Cir. 1994) (per curiam)).
Here, the district court did not err under Rule
32(i)(3)(B). That rule governs factual disputes about
contested facts in a presentence report, not a district
court’s legal conclusions about a defendant’s final sentence. See Vincent, 121 F.3d at 1453 (“[Rule 32(i)(3)(B)]
is not applicable to an objection to a probation officer’s
legal opinions or conclusions.”).2 Here, there was no
2

Vincent addressed former Rule 32(c)(1), which contains the
relevant rule now codified in 32(i)(3)(B):
At the sentencing hearing, the court must afford
counsel for the defendant and for the Government an
opportunity to comment on the probation officer’s determinations and on other matters relating to the
appropriate sentence, and must rule on any unresolved
objections to the presentence report. The court may, in
its discretion, permit the parties to introduce testimony
or other evidence on the objections. For each matter
controverted, the court must make either a finding on

App. 7
dispute about the facts in the presentence report,
so the district court could not have violated Rule
32(i)(3)(B).
To the extent that McLaughlin’s argument renews
his substantive reasonableness and Eighth Amendment challenges to his sentence, they also fail. We
review the imposition of a fine for clear error, United
States v. Long, 122 F.3d 1360, 1366 (11th Cir. 1997),
and the constitutionality of the fine under the Eight
Amendment de novo, United States v. Bajakajian, 524
U.S. 321, 336-37 (1998).
The district court did not clearly err in imposing a
$300,000 fine. The Sentencing Guidelines require the
district court to impose a fine unless the defendant
establishes that he is unable to pay a fine and is
unlikely to become able to pay. U.S.S.G. § 5E1.2(a).
The burden is on the defendant to prove his inability
to pay. United States v. Gonzalez, 541 F.3d 1250, 1255
(11th Cir. 2008). Once a district court decides that a
fine is appropriate, it must consider the factors set
forth in § 5E1.2, which overlap substantially with the
§ 3553(a) factors, to determine the amount of the fine.

the allegation or a determination that no finding is
necessary because the controverted matter will not be
taken into account in, or will not affect, sentencing. A
written record of these findings and determinations
must be appended to any copy of the presentence report
made available to the Bureau of Prisons.
See Fed. R. Crim. P. 32 Advisory Committee’s Note (2002) (“Revised Rule 32(i)(3) addresses changes to current Rule 32(c)(1).”).

App. 8
See United States v. Hernandez, 160 F.3d 661, 665
(11th Cir. 1998).3
Here, McLaughlin did not challenge the PSI’s
statements that he had approximately $360,000 in a
retirement account available to him and did not argue
that a fine, or even a lesser fine, was not warranted,
prior to the court’s pronouncement of his sentence.
Moreover, the record shows that the district court
considered the § 5E1.2 factors in determining the
appropriate fine amount. The district court adopted
the PSI, which included statements as to McLaughlin’s
financial resources and lack of dependents, and it
was clear at sentencing that the victims, including
McLaughlin’s wife, were not seeking restitution. And
3

U.S.S.G. § 5E1.2(d) lists eight factors:
(1) the need for the combined sentence to reflect the
seriousness of the offense (including the harm or loss
to the victim and the gain to the defendant), to promote
respect for the law, to provide just punishment and to
afford adequate deterrence; (2) any evidence presented
as to the defendant’s ability to pay the fine (including
the ability to pay over a period of time) in light of his
earning capacity and financial resources; (3) the burden that the fine places on the defendant and his
dependents relative to alternative punishments; (4) any
restitution or reparation that the defendant has made
or is obligated to make; (5) any collateral consequences
of conviction, including civil obligations arising from
the defendant’s conduct; (6) whether the defendant
previously has been fined for a similar offense; (7) the
expected costs to the government of any term of probation, or term of imprisonment and term of supervised
release imposed; and (8) any other pertinent equitable
considerations.

App. 9
the district court heard argument from the government regarding an appropriate fine amount, including
a consideration of the cost to prosecute and imprison
McLaughlin. Finally, the $300,000 fine was within
the $40,000 to $400,000 guideline fine range, and
McLaughlin has not argued that the range was improperly calculated.
For that same reason, the $300,000 fine was not
excessive under the Eighth Amendment. A fine imposed within the guideline fine range doesn’t “surpass[ ] the usual, the proper, or a normal measure of
proportion.” Bajakajian, 524 U.S. at 335.
B
Though the district court’s fine was neither substantively unreasonable nor unconstitutionally excessive, the district court erred by not specifying the
apportionment of the total $300,000 fine between the
two convictions. “A general sentence is an undivided
sentence for more than one count that does not exceed
the maximum possible aggregate sentence for all the
counts but does exceed the maximum allowable sentence on one of the counts.” United States v. Moriarty,
429 F.3d 1012, 1025 (11th Cir. 2005) (quoting Jones v.
United States, 224 F.3d 1251, 1259 (11th Cir. 2000)).
“Such sentences are per se illegal in this circuit, and
require a remand.” Id.
Here, the pertinent penalty provisions authorize
a statutory maximum fine of $250,000 for each conviction. See 18 U.S.C. §§ 1958(a), 2422(b), 3571(b)(3).

App. 10
Thus, although the total fine amount does not exceed
the combined statutory maximum of $500,000, and we
affirm the district court’s imposition of a total $300,000
fine, we vacate the fine portion of the judgment and
remand for the limited purpose of allowing the district
court to specify how the $300,000 fine was apportioned
between the two convictions.
III
We AFFIRM McLaughlin’s sentence, but VACATE
AND REMAND so that the district court may apportion the $300,000 fine between the two convictions.

